            Audit Report




Identifying and Monitoring Risk
   Factors at Hearing Offices




      A-12-12-11289| January 2013
MEMORANDUM


Date:      January 24, 2013                                                    Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)

           The attached final report presents the results of our review. Our objectives were to determine
           whether the Office of Disability Adjudication and Review had (1) identified key risk factors
           related to hearing office performance and operations and (2) established a process to measure
           and monitor these key risk factors.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Summary of Identifying and Monitoring Risk Factors at Hearing
Offices
A-12-12-11289
January 2013
                                           Our Findings
Objective
                                           We found that ODAR had created 19 ranking reports that measured
To determine whether the Office of         hearing office performance using a single risk factor, such as
Disability Adjudication and Review         average processing time or pending cases per ALJ. However,
(ODAR) had (1) identified key risk         ODAR had not established a process to rank hearing office
factors related to hearing office          performance using a combination of risk factors. In FY 2011,
performance and operations and             ODAR began developing an early monitoring system to measure
(2) established a process to measure       ALJ performance based on a combination of risk factors, such as
and monitor these key risk factors.        number of dispositions, number of on-the-record decisions, and
                                           frequency of hearings with the same claimant representative. A
Background
                                           quality division then reviewed potential issues identified in the ALJ
Administrative law judges (ALJ) and        monitoring system to ensure compliance with established policies
senior attorney adjudicators, in           and procedures. We reviewed hearing office risk factors particular
approximately 165 hearing offices and      to ALJs to determine whether such information, when alone or
5 National Hearing Centers, issued         combined with ODAR’s ALJ monitoring system outcomes, would
over 793,000 dispositions in Fiscal        provide ODAR management with additional information to assess
Year (FY) 2011. ALJs, managers, and        hearing office management controls. We found large variances in
hearing office staff are required to       ALJ outcomes within and between hearing offices, indicating that
adhere to ODAR’s policies and              further review of ALJ performance variances in hearing offices, as
procedures to ensure each claimant has     well as a new hearing office monitoring system using a
a fair hearing on his/her claim. In        combination of risk factors, would provide ODAR with additional
addition, ODAR managers are required       tools to assess hearing office management controls. Moreover,
to monitor the quality of the hearing      greater analysis of hearing office variance can put issues identified
process, ensure sufficient resources are   as part of ODAR’s ALJ monitoring system and quality reviews into
directed at key workloads, and address     a broader context.
allegations pertaining to deviations
                                           Our Recommendations
from proper case handling.
                                           1. Ensure an ALJ early monitoring system becomes a permanent
                                              part of management oversight and use this information to timely
                                              address potential anomalies in the hearings process.
                                           2. Create new management information reports combining ALJ-
                                              related hearing office risk factors, which could include
                                              variances within those factors, and use this information to
                                              identify potential processing and management problems at
                                              hearing offices.

                                           The Agency agreed with the recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Management Oversight of Hearing Office Performance ...........................................................2
           Hearing Office Ranking Reports .........................................................................................3
     Management Oversight of ALJ Performance ............................................................................4
           Monitoring and Review of ALJ Performance ......................................................................4
     Key Risk Factors at Hearing Offices .........................................................................................6
           Variance in Allowance Rates in Hearing Offices ................................................................6
           Variance in Disposition Rates at Hearing Offices ...............................................................7
           Variance in OTR Decisions at Hearing Offices ...................................................................8
           Variance in Dismissal Rates at Hearing Offices ..................................................................9
           Variance in APTs at Hearing Offices ..................................................................................9
Conclusions ....................................................................................................................................10
Recommendations ..........................................................................................................................11
Agency Comments .........................................................................................................................11
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Management Information Reports ...................................................................... B-1
Appendix C – Quality Reviews of Administrative Law Judge Decisions ................................. C-1
Appendix D – Agency Comments .............................................................................................. D-1
Appendix E – Major Contributors...............................................................................................E-1




Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)
ABBREVIATIONS
ALJ                  Administrative Law Judge

APT                  Average Processing Time

ARRA                 American Recovery and Reinvestment Act

C.F.R.               Code of Federal Regulations

CPMS                 Case Processing and Management System

CRR                  Congressional Response Report

DART                 Disability Adjudication Reporting Tools

DQ                   Division of Quality

DQS                  Division of Quality Services

FY                   Fiscal Year

MI                   Management Information

NHC                  National Hearing Center

OAO                  Office of Appellate Operations

OCALJ                Office of the Chief Administrative Law Judge

ODAR                 Office of Disability Adjudication and Review

OIG                  Office of the Inspector General

OQP                  Office of Quality Performance

OTR                  On-the-Record

SAA                  Senior Attorney Adjudicator

SSA                  Social Security Administration

SSN                  Social Security Number

TAG                  Triage Assessment Group




Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)
OBJECTIVE
Our objectives were to determine whether the Office of Disability Adjudication and Review
(ODAR) had (1) identified risk factors 1 related to hearing office performance and operations and
(2) established a process to measure and monitor these risk factors.

BACKGROUND
Administrative law judges (ALJ) and senior attorney adjudicators (SAA), in approximately
165 hearing offices and 5 National Hearing Centers (NHC), 2 issued over 793,000 dispositions in
Fiscal Year (FY) 2011. ALJs, managers, and hearing office staff are required to adhere to
ODAR’s policies and procedures to ensure each claimant has a fair hearing on his/her claim. In
addition, ODAR managers are required to monitor the quality of the hearing process, ensure
sufficient resources are directed at key workloads, and address allegations pertaining to
deviations from proper case handling.

Earlier congressional and media attention on hearing office activities have highlighted concerns
about ALJ and hearing office performance. In a July 2011 joint hearing on the role of Social
Security Administration (SSA) ALJs, 3 the Chairman of the House Committee on Ways and
Means, Subcommittee on Social Security, stated, “…the public is rightly paying attention and
raising questions about the integrity of the ALJ hearing process.” 4 The Chairman also
highlighted news articles on ALJs, including stories of ALJs with high allowance rates,
“extremely” high numbers of cases in comparison with their colleagues, and assignment of cases
outside of random rotation, “. . . raising the specter of inappropriate relationships with counsel.” 5
The Chairman noted, “At a minimum, these articles raise serious questions about the
fundamental fairness of this appeals system, and whether it operates as the public has a right to




1
  Throughout the report, we use the term “risk factor” to connote a workload or performance measure that may
indicate problems with the underlying process if it varies too far from Agency expectations.
2
 NHCs were established to conduct video hearings nationwide and operate in Albuquerque, New Mexico;
Baltimore, Maryland; Chicago, Illinois; Falls Church, Virginia; and St. Louis, Missouri. NHCs are directed by the
Office of the Chief ALJ in Falls Church, Virginia.
3
 The Role of Social Security Administration Administrative Law Judges, Hearing before H. Committee on the
Judiciary, Subcommittee on Courts, Commercial and Administrative Law, and H. Committee on Ways and Means,
Subcommittee on Social Security, 112th Cong., (July 11, 2012).
4
 Id. Statement of Representative Sam Johnson, Chairman H. Committee on Ways and Means, Subcommittee on
Social Security.
5
    Id.




Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)                                          1
expect.” 6 In 2012, we issued two reports addressing specific congressional questions related to
these concerns. 7

To accomplish our objectives, we met with ODAR management to discuss key risk factors
related to ALJ and hearing office performance, existing and planned management information
reports, and ongoing hearing office monitoring related to key risk factors. We also reviewed
management information generated by ODAR’s Case Processing and Management System
(CPMS) and Disability Adjudication Reporting Tool to independently analyze hearing office
workload performance. 8

RESULTS OF REVIEW
We found that ODAR had created 19 ranking reports that measured hearing office performance
using a single risk factor, such as average processing time or pending cases per ALJ. However,
ODAR had not established a process to rank hearing office performance using a combination of
risk factors. In FY 2011, ODAR began developing an early monitoring system to measure ALJ
performance based on a combination of risk factors, such as number of dispositions, number of
on-the-record (OTR) decisions, and frequency of hearings with the same claimant representative.
A quality division then reviewed potential issues identified in the ALJ monitoring system to
ensure compliance with established policies and procedures. We reviewed hearing office risk
factors particular to ALJs to determine whether such information, when alone or combined with
ODAR’s ALJ monitoring system outcomes, would provide ODAR management with additional
information to assess hearing office management controls. We found large variances in ALJ
outcomes within and between hearing offices, indicating that further review of ALJ performance
variances in hearing office, as well as a new hearing office monitoring system using a
combination of risk factors, would provide ODAR with additional tools to assess hearing office
management controls. Moreover, greater analysis of hearing office variance can put issues
identified as part of ODAR’s ALJ monitoring system and quality reviews into a broader context.

Management Oversight of Hearing Office Performance
We reviewed ODAR’s management information related to the hearings workload to determine
the level of information already available to ODAR managers monitoring hearing office
performance factors.




6
    Id.
7
 SSA Office of the Inspector General (OIG), Congressional Response Report (CRR): Oversight of Administrative
Law Judge Workload Trends (A-12-11-01138), February 2012, and CRR: The Social Security Administration’s
Review of Administrative Law Judges’ Decisions (A-07-12-21234), March 2012.
8
    See Appendix A for further information on our scope and methodology for this review.




Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)                                     2
Hearing Office Ranking Reports
ODAR maintained a considerable amount of management information (MI) to monitor hearing
office and employee productivity. 9 Among these were 19 national ranking reports for measuring
hearing offices’ progress toward meeting productivity and processing time goals using a single
performance factor (see Table 1). For each report, ODAR ranked hearing offices using one
performance factor. For example, the average processing time (APT) report ranks each hearing
office by the average number of days it takes to issue a decision. These reports rank the
performance of each hearing office but do not differentiate among each ALJ’s performance
within the office. In addition, ODAR has not established a process to assess hearing office
performance using a combination of performance factors. 10

                       Table 1: CPMS MI Hearing Office Ranking Reports
                                               Report Name
     Average Processing Time                          Pending per ALJ
     Average Age of Pending                           Percentage of Dispositions Less than 180 Days
     Continuance Rate                                 Percentage of Dispositions over 270 Days
     Decision Writing Pending Days                    Percentage of Dispositions over 365 Days
     Decision Drafted per Month per Decision          Postponement Rate
     Writer
     ALJ Dispositions per Day per ALJ                 Productivity Index
     Dispositions to Receipt Ratio                    Pulling Pending Days
     Held per ALJ per Day                             Scheduled per ALJ per Day
     Held to Schedule Rate                            Total Receipts per Day per ALJ
     Number of Cases Pulled per Resource

ODAR has one composite ranking report, the Productivity Index, that measures overall hearing
office productivity using such factors as dispositions issued by the ALJs, the work performed by
support staff actively involved in processing those dispositions, and assistance provided to ALJs
in other hearing offices. According to ODAR, its Office of Budget uses this report to construct
hearing office budgets and make staffing allocation decisions. However, ODAR managers are
not using the Productivity Index report to monitor the hearing offices’ overall performance.




9
 See Appendix B for more information on examples of management information reports available to ODAR
managers and staff.
10
  ODAR management stated that it performed hearing office management reviews on a number of hearing offices
annually where management controls and oversight are examined during the reviews, and also monitors hearing
offices with low productivity.




Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)                                    3
Management Oversight of ALJ Performance
Over the last few years, ODAR has been refining its management oversight process, including
developing and testing an early monitoring system that measures ALJ performance using a
combination of risk factors and establishing a new quality division to ensure compliance with
policies and procedures by conducting focused reviews of closed cases.

Monitoring and Review of ALJ Performance
With increasing attention on ALJ performance, ODAR’s senior executives have continued
refining their management oversight process and identifying issues that require immediate
management action. Senior executives in ODAR, 11 along with a newly created Triage
Assessment Group (TAG) 12 in the Office of the Chief ALJ (OCALJ), worked with ODAR’s
Division of Management Information and Analysis to develop an ALJ early monitoring system.
ODAR began testing an early monitoring system in the summer of 2011 and was still developing
and testing this system at the time of our review. For instance, the ALJ monitoring system was
devising ways to create new management information after combining multiple risk factors
related to ALJ performance, such as number of dispositions, number of OTRs, and the frequency
of hearings with the same claimant representative. 13

According to ODAR executives, an early monitoring system will examine factors that, in and of
themselves, would not represent an issue but might become problematic when coupled with other
factors. ODAR stated early monitoring system factors were selected based on lessons learned in
recent years and new directives to hearing office managers. 14 As noted earlier, ODAR managers
were already able to monitor some of these risk factors separately using existing MI reports, but
the early monitoring system provides a more comprehensive view of each ALJ’s performance.
Using the early monitoring system, each of these risk factors is normalized and combined with
one another to produce an overall score. Hence, an ALJ with high productivity and a low
number of OTRs would have a different score than an ALJ with high productivity and high
OTRs. ODAR senior executives can then determine whether those ALJs who scored high on a
combination of risk factors need further attention.



11
  ODAR’s senior executives include the Deputy Commissioner, Assistant to the Deputy Commissioner, Director of
the Office of Appellate Operations (OAO), Deputy Director of OAO, Chief ALJ, and Deputy Chief ALJ.
12
  OCALJ formed TAG in FY 2012. TAG members include the Chief ALJ, Deputy Chief ALJ, and Division
Directors, as appropriate. TAG meets periodically to review the status of workload and performance issues among
the ALJs, such as noncompliance with policies and procedures.
13
 We are completing work on a separate report to determine whether cases are rotated among ALJs consistent with
Agency policy: Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274).
14
  For instance, in FY 2011, the Commissioner established an annual ceiling of 1,200 dispositions per ALJ (this
ceiling was subsequently reduced). In addition, the Chief ALJ established new controls over the transfer of cases
from one ALJ’s docket to another to ensure proper case rotation.



Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)                                          4
In FY 2010, ODAR asked the newly created Division of Quality (DQ) in OAO to conduct
focused reviews on ALJ-related issues to ensure compliance with Agency policies and
procedures (see Figure 1). ALJs issues identified during the testing of the early monitoring
system have been added to DQ’s workload. DQ has conducted numerous focused reviews of
ALJ issues, including the dispositions of ALJ outliers in terms of decisional outcomes and case
rotation between ALJs and claimant representatives. 15

                                     Figure 1: ODAR Oversight Process




DQ reported the results of its studies to ODAR’s senior executives. DQ focused review findings
have led to additional ALJ and SAA training to improve decisional quality as well as compliance
with policies and procedures. For instance, after a number of DQ reviews identified ALJ and
SAA procedural errors when evaluating treating source opinions and questionable phrasing of
claimants’ residual functional capacity, OCALJ created a mandatory training program for all
adjudicators to address this issue. Other DQ reviews have identified cases where the ALJ was
not following Agency policy. In these cases, ODAR’s senior executives issue directives
requiring the ALJs to comply with policy. 16 If the ALJ fails to comply, ODAR could seek




15
     See Appendix C for additional ALJ studies conducted by SSA.
16
     As appropriate, DQ has referred some issues to the OIG.




Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)                        5
disciplinary actions against the ALJ. However, according to SSA, it cannot take disciplinary
actions against an ALJ based solely on the ALJ’s decisions in a particular case. 17

In addition to the ALJ early monitoring system and other data sources, ODAR’s Division of
Quality Services (DQS) maintains management information on complaints made against ALJs
by the public and employees. 18 Part of DQS’ mission is to formulate, develop, communicate and
oversee field practices and procedures governing ALJ conduct, performance, and alleged public
misconduct complaints in coordination with OCALJ. However, at the time of our review,
ODAR had not incorporated information from the ALJ complaint system into the early
monitoring system. ODAR management noted that the substantiated complaints against ALJs
are handled individually as they move through the disciplinary process.

Key Risk Factors at Hearing Offices
We reviewed hearing office risk factors particular to ALJs to determine whether such
information, when alone or combined with early monitoring system outcomes, would provide
ODAR management with additional information to assess hearing office management controls.
For instance, the variance in performance and outcomes between ALJs in the same office, such
as allowance rates, disposition rates, OTRs, dismissal rates, or average processing time, could
highlight issues related to processing controls and management oversight. Offices with high
variances in more than one key risk factor would be of greater interest to management than
offices with only one area of high variance. We understand that one ALJ may affect multiple
measures, or an entire office may be at one extreme or another of a risk factor, limiting the utility
of such analysis, but analyzing such variances provides another tool to managers overseeing
hearing offices. Moreover, this information would also allow ODAR to place the issues
identified in an early monitoring system and DQ focus reviews into additional context.

Variance in Allowance Rates in Hearing Offices
In our February 2012 CRR, 19 using FY 2010 CPMS closed case information, we found that most
of the outlier ALJs’ allowance rates aligned with the hearing offices’ average allowance rates.
For instance, most of the high allowance outlier ALJs worked in hearing offices that had higher
than national average allowance rates. Conversely, most of the low allowance outlier ALJs


17
  SSA’s basis for this belief comes from its interpretation of the Merit System Protection Board’s ruling In re
Chocallo, 1 M.S.P.R. 605, 610-11 (1980) (holding that the Board will not find good cause to discipline an ALJ
based solely on decision outcomes, and it will carefully examine for satisfaction of the good cause standard any
proposed discipline based on an ALJ’s performance of an adjudicatory function). For more information see CRR:
The Social Security Administration’s Review of Administrative Law Judges’ Decisions (A-07-12-21234), March
2012.
18
  We are conducting a review of the Administrative Law Judge Alleged Misconduct and Complaint Process
(A-05-11-01131).
19
     SSA OIG, CRR: Oversight of Administrative Law Judge Workload Trends (A-12-11-01138), February 2012.




Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)                                         6
worked in hearing offices with below national average allowance rates. However, we found
some cases where there were wide variances in the allowance rates among outlier ALJs in the
same hearing office. For example, we noted how one hearing office had an ALJ with an
allowance rate of 95 percent, while another had an allowance rate of 9 percent, an 86-percent
difference. 20

Using the FY 2011 CPMS closed claims database, we identified large variances in allowance
rates among ALJs in the same hearing office and small variances in other offices. 21 For example,
in one large hearing office, we found an ALJ had a 94-percent allowance rate while another had
an 18-percent allowance rate (see Table 2), a variance rate of 76 percent. We found the variance
was only 18 percent in another similarly sized hearing office.

                         Table 2: Variance in Allowance Rates Among ALJs
                              at Two Large Hearing Offices in FY 2011
                 Hearing Office Highest Allowance Lowest Allowance Variance
                    Office 1          94%               18%          76%
                    Office 2          60%               42%          18%

Variance in Disposition Rates at Hearing Offices
In our February 2012 review, 22 we found a direct relationship between ALJ productivity and
allowance rates. For instance, 9 of the 12 high-allowance ALJs decided more cases than the
average productivity of the other ALJs in the same office. In addition, of the 12 high-denial
ALJs, 8 decided fewer cases than the average of their peers in the same hearing office. These
hearing offices also had wide ranges in ALJ dispositions among the ALJs in the office. For
instance, one hearing office had an ALJ with 1,472 dispositions, while another ALJ in that office
had 396 dispositions, a difference of 1,076 dispositions.




20
   In a recent hearing, ODAR management stated, “Since FY 2007, there has been more than a two-thirds reduction
in the number of judges who allow more than 85 percent of their cases.” Social Security Disability Programs:
Improving the Quality of Benefit Award Decisions, Hearing before S. Committee on Homeland Security and
Government Affairs, Permanent Subcommittee on Investigations, 112th Cong., (September 13, 2012) (Statement of
Judge Patricia Jonas, Executive Director, OAO, ODAR).
21
   We divided the hearing offices into small (fewer than seven ALJs), medium (seven or eight ALJs), and large
(more than eight ALJs) to ensure our variance analysis was not skewed by the number of ALJs in an office. We also
restricted our analysis to ALJs with 200 or more dispositions in FY 2011 to reduce the chance that we were
including newly hired ALJs or ALJs working in offices for only part of a year. Finally, we calculated the decisional
allowance rate for ALJs, meaning we did not include dismissals in our calculations.
22
     SSA OIG, CRR: Oversight of Administrative Law Judge Workload Trends (A-12-11-01138), February 2012.




Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)                                        7
Our analysis of the FY 2011 CPMS closed claims database showed wide variances in ALJ
dispositions in some medium-sized hearing offices and small variances in other offices. For
example, the variance in dispositions between 2 ALJs in 1 medium-size hearing office was 712;
while the variance in another office was 34 (see Table 3).

                       Table 3: Variance in ALJ Dispositions Among ALJs
                          at Two Medium Hearing Offices in FY 2011
               Hearing Office Highest Dispositions Lowest Dispositions Variance
                  Office 1            942                 230            712
                  Office 2            551                 517             34

Variance in OTR Decisions at Hearing Offices
In our February 2012 report, 23 we discussed a wide variance in the number of OTR 24 decisions
among ALJs. Our analysis of the 12 high-allowance ALJs identified 3 ALJs with a high
percentage of dispositions as OTR decisions. The OTR dispositions accounted for at least 72
percent of each ALJ’s dispositions. We learned that some ALJs’ preference for full hearings was
a reason for the wide variance in the OTR decision rate since the OTR decisions would be
provided to the ALJs willing to process them. 25

Our analysis of the FY 2011 CPMS closed claims database showed a wide variance in OTR
decisions among ALJs in the same hearing office. For example, at one small hearing office with
six ALJs, the variance in the OTR rate was 23 percent, while in another office with six ALJs, the
variance was 6 percent (see Table 4).

                        Table 4: Variance in ALJ OTR Rates Among ALJs
                             at Two Small Hearing Offices in FY 2011
               Hearing Office Highest Dispositions Lowest Dispositions Variance
                  Office 1           24%                  1%            23%
                  Office 2            8%                  2%             6%




23
     Id.
24
   OTR decisions, which are generally favorable, occur when an ALJ or SAA has determined a decision can be
issued without a hearing. OTR decisions can also occur when the claimant has waived the right to a hearing.
25
  The number of SAAs available to process OTR decisions can change the number of OTR decisions available to
ALJs. We are completing work on the Effects of the Senior Attorney Adjudicator Program on Hearing Workloads
(A-12-13-23002).


Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)                                    8
Variance in Dismissal Rates at Hearing Offices
In a December 2010 audit, 26 we identified wide variances in regional dismissal rates, particularly
untimely dismissals. 27 Based on our recommendation, SSA agreed to review these variances. In
a separate Office of Quality Performance study, it disagreed with 30 percent of the dismissals
reviewed, with the greatest disagreement related to withdrawal dismissals. 28 The report provided
suggestions for improving dismissal quality.

In our analysis of the FY 2011 CPMS closed claims database, we found a difference in ALJ
dismissal rates of up to 19 percent in one medium hearing office, while the difference was
3 percent in another office (see Table 5).

                          Table 5: Variance in Dismissal Rates Among ALJs
                             at Two Medium Hearing Offices in FY 2011
                 Hearing Office Highest Dispositions Lowest Dispositions Variance
                    Office 1           31%                  12%           19%
                    Office 2           12%                   9%            3%

Variance in APTs at Hearing Offices
ODAR’s goal is to reduce its APT to 270 days by the end of FY 2013. The APT for FY 2011
was 360 days. In our June 2011 congressional report, 29 we identified a number of factors that
allowed ODAR to make progress towards this goal, such as re-allocating resources, 30 funding




26
 SSA OIG, Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-20171),
December 2010.
27
  Untimely Dismissal—The request for hearing is untimely and no good cause is found by the ALJ for the hearing
request to be granted. Hearings, Appeals and Litigation Law Manual I-2-4-90—Table of Dismissal Codes
(July 22, 2005).
28
     SSA’s OQP, Dismissal Quality Review, December 2011.
29
  SSA OIG, CRR: The Office of Disability Adjudication and Review’s Hearings Backlog and Processing Times
(A-12-11-21192), June 2011.
30
  President’s Fiscal Year 2012 Budget Request for the Social Security Administration: Hearing before the S.
Committee on Appropriations, Subcommittee on Labor, Health and Human Services, Education, and Related
Agencies, 112th Cong., (March 9, 2011) (statement of Michael J. Astrue, Commissioner of Social Security).




Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)                                       9
under the American Recovery and Reinvestment Act (ARRA) 31 in FYs 2009 and 2010, and
implementing backlog initiatives.

Our analysis of FY 2011 CPMS closed claims database showed a wide variance among APTs for
ALJs in large hearing offices. For example, the difference among ALJ APTs in 1 large hearing
office with 13 ALJs was 552 days, while another with 13 ALJs was 111 days (see Table 6).

                               Table 6: Variance in APT Among ALJs
                              at Two Large Hearing Offices in FY 2011
               Hearing Office Highest Dispositions Lowest Dispositions Variance
                  Office 1            761                 209            552
                  Office 2            366                 255            111

CONCLUSIONS
We found ODAR had numerous reports that tracked hearing office performance using one
hearing office risk factor; however, it did not have a process to assess variances among ALJs in
those hearing offices or rank overall hearing office performance using multiple risk factors.
During our review, we found that ODAR had begun creating a process to further monitor and
assess outlier ALJ performance, including an early monitoring system and related focused
reviews of compliance with policies and procedures in ALJ and SAA decisions. While this ALJ
monitoring process assists management with its oversight of the hearings process, ODAR would
enhance this process by creating an early monitoring system that evaluates multiple risk factors
relating to hearing office performance. A hearing office risk factor report would allow ODAR to
place the issues identified in an ALJ early monitoring system into context, and would give
ODAR managers more information relating to management controls in each hearing office.




31
  ARRA was signed into law on February 17, 2009, Pub. L No. 111-5, 123 Stat. 115, 185-186, Division A, Title
VIII Social Security Administration (2009). ARRA provided SSA with $500 million to process the increasing
disability and retirement workloads caused in part by the economic downturn and the leading edge of the baby
boomer retirements. See The Office of Disability Adjudication and Review’s Staffing Plans Under the American
Recovery and Reinvestment Act (A-12-09-29140), December 2009.




Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)                                     10
RECOMMENDATIONS
To improve management’s oversight of hearing office workloads and performance, we
recommend SSA:

1. Ensure an ALJ early monitoring system becomes a permanent part of management oversight
   and use this information to timely address potential anomalies in the hearings process.

2. Create new MI reports combining ALJ-related hearing office risk factors, which could
   include variances within those factors, and use this information to identify potential
   processing and management problems at hearing offices.

AGENCY COMMENTS
SSA agreed with the recommendations. See Appendix D for the Agency’s comments.




Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)                  11
                                        APPENDICES




Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•   Reviewed applicable laws and Social Security Administration (SSA) policies and procedures,
    including the Office of Disability Adjudication and Review’s (ODAR) Hearings, Appeals,
    and Litigation Law Manual.

•   Reviewed recent congressional testimony pertaining to oversight of SSA’s hearings process.

•   Reviewed previous Government Accountability Office and Office of the Inspector General
    reports related to this review.

•   Reviewed previous SSA studies and reviews performed by ODAR, the Office of Appellate
    Operations (OAO), and the Office of Quality Performance.

•   Interviewed ODAR headquarters executives, managers and staff at ODAR’s Office of the
    Chief Administrative Law Judge, and managers and staff at the Division of Management
    Information and Analysis.

•   Met with How MI Doing? team to review the new Appeals Council features in the
    application.

•   Reviewed Case Processing and Management System (CPMS) and Disability Adjudication
    Reporting Tools Ad Hoc management information reports to identify risk factors already
    being tracked by ODAR.

•   Obtained Fiscal Year (FY) 2011 workload statistics on administrative law judges (ALJ) from
    ODAR’s CPMS. Using these data, we calculated ALJ allowances, dismissals, productivity,
    on-the-record decisions, and average processing time and determined the variances of these
    factors at all hearing offices. We also divided the hearing offices into small (fewer than
    seven ALJs), medium (seven or eight ALJs), and large (more than eight ALJs) to ensure our
    variance analysis was not skewed by the number of ALJs in an office. Moreover, we
    restricted our analysis to ALJs with 200 or more dispositions in FY 2011 to reduce the
    chance that we were including newly hired ALJs or ALJs working in offices for only part of
    a year. Finally, we calculated the decisional allowance rate for ALJs, meaning we did not
    include dismissals in our calculations.

We found that FY 2011 data were sufficiently reliable to meet our objectives. The entity audited
was the Office of the Deputy Commissioner for Disability Adjudication and Review. We
conducted this performance audit from April through September 2012 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.


Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)                     A-1
Appendix B – MANAGEMENT INFORMATION REPORTS
The Office of Disability Adjudication and Review (ODAR) created numerous Case Processing
and Management System (CPMS) management information (MI) reports and workload listings
to monitor hearing office and employee performance. CPMS provides a comprehensive
workload management package with two functions: (1) workload control, which provides
pending actions and real-time workload information and (2) MI, which provides completed
workload information on a daily basis.

National Status Reports
CPMS reports are available to ODAR managers at the national, regional, and hearing office
levels. Some examples of CPMS reports that ODAR managers can view at all levels include the
following.

•   Caseload Analysis Report: Compiles information on completed workloads for the previous
    fiscal year and for each month during the current fiscal year. It also provides running totals
    and averages for the fiscal year-to-date information. MI in this report includes case receipts
    and transfers, hearings scheduled, administrative law judge (ALJ) dispositions, decisions
    written, cases pulled, hearing office processing times, and pending case workloads.

•   Disposition Summary by Age: A summary of the number of dispositions issued during the
    reporting month for each ALJ within a hearing office. The report is broken down by age of
    case at the time of disposition.

Hearing Office Benchmarks
The No Status Change report assists hearing office managers by identifying potential bottlenecks
in the hearings process. As part of CPMS, hearing office employees assign a status code to each
claim as it moves through the process. The status code identifies the processing stage and
claim’s location. While CPMS uses about 40 status codes to track and process pending claims in
the hearing offices, the No Status Change report tracks claims in 12 specific status codes. For
each of the 12 status codes, ODAR has set a benchmark time (measured in days). If the claim
stays in a status code beyond the benchmark time, it will appear in the No Status Change report.
The claim will continue to appear in the No Status Change report until the case moves to the next
step in the process and the status code is changed.

Self-Monitoring Reports
In August 2011, after 6 months of testing, ODAR rolled out the How MI Doing? reporting tool,
which allows ALJs, decision writers, and senior case technicians to monitor and compare their
performance to their peers in the office, region, and nation. These reports are viewed as




Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)                      B-1
bottom-up reports, where individuals can view their own performance and compare it to others
locally, regionally, and nationally, as opposed to the CPMS and Disability Adjudication
Reporting Tools (DART) reports, which are top-down reports that allow the users to drill down
to the level of interest. 1

The How MI doing? tool tracks ALJ average processing time, dispositions, cases pending, cases
scheduled, and Appeals Council remands. The remand metric was added in April 2012 and
allows the ALJ to view each case that was remanded and the reason for the remand. ODAR told
us that group supervisors, hearing office directors, and hearing office chief ALJs can also view
the reports. Moreover, regional management can view the metrics for all ALJs, decision writers,
and senior case technicians in their regions and Headquarters can view the statistics for everyone
in the nation.

DART Ad Hoc Reports
DART contain a number of ad hoc reports for use in ODAR hearing offices to provide a variety
of management information and workload listings designed to supplement CPMS reporting
capabilities. 2 For example, the DART E1 Favorable Cases report illustrates all Title II and Title
XVI favorable decisions at the hearing office during a specific timeframe. It allows hearing
office employees to drill down and view each case at the individual level.

In our August 2009 review, 3 we found that ODAR had 66 MI DART reports. We noted
that significant time could be saved each month if the manual reports were automated in CPMS
and DART and that ODAR should consider automating the manual reports that were most
beneficial and most frequently used by its regional and hearing office managers. As of
August 2012, ODAR had 92 DART reports available to its managers and staff, an increase of
26 automated reports.




1
 ODAR already had other reports that allowed employees to see their own performance, if not the performance of
others. For example, the Decisions Written/Reviewed Listing. This report produces a listing of cases that a decision
writer wrote and reviewed, as well as the date when the employee started writing the decision as well as finished it.
Each decision writer can see his or her own workload statistics.
2
 For more information on these systems, see Social Security Administration Office of the Inspector General, Quick
Evaluation Report: Office of Disability Adjudication and Review Management Information (A-07-09-29162),
August 2009.
3
    Id.




Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)                                        B-2
Appendix C – QUALITY REVIEWS OF ADMINISTRATIVE LAW
             JUDGE DECISIONS
As we noted in our March 2012 review, 1 the Social Security Administration (SSA) initiated
additional reviews of administrative law judge (ALJ) decisions. In Fiscal Year (FY) 2010,
SSA’s Office of Quality Performance (OQP) began performing post-effectuation reviews of
randomly selected ALJ decisions. 2 OQP completed reviews of 2,044 ALJ decisions issued in
FY 2009 and 2010. Since these reviews were post-effectuation, the decisions were not changed,
even if they were found to include errors (except for instances when such a decision satisfied the
criteria for reopening). The Office of Disability Adjudication and Review (ODAR) used the
results of the OQP reviews to ensure ALJs are following policies and procedures and identify
necessary training for ALJs and hearing office staff.

In FY 2011, ODAR conducted seven post-effectuation studies on cases based on anomalies that
came to its attention. Again, since these studies were post-effectuation, Federal regulations
prohibited the decisions from being changed even if they were found to be incorrect. 3
Nonetheless, ODAR used the results of the study to develop specific training for its adjudicators.

Also, in FY 2011, ODAR completed its first annual pre-effectuation review of ALJ decisions,
reviewing 3,692 randomly selected allowance decisions. 4 Based on the case review, ODAR’s
Appeals Council allowed the ALJs’ decisions to proceed to effectuation, issued final decisions
on the cases, or returned the cases to the ALJs with instructions for additional actions.




1
 SSA OIG, Congressional Review Report: The Social Security Administration’s Review of Administrative Law
Judges’ Decisions (A-07-12-21234), March 2012.
2
  Post-effectuation reviews occur after the 60-day period a claimant has to appeal the ALJ decision and do not result
in a change to the decision. Generally, an ALJ’s decision can only be changed if it has been reviewed within the
60-day appeal period. See 20 C.F.R. §§ 404.968(a)(1), 404.969(b)(1), 416.1468(a), 416.1469(b)(1).
3
    Id.
4
  A pre-effectuation review occurs within the 60 days a claimant has to appeal the ALJ decision. See 20 C.F.R. §§
404.969(a)(1), 416.1469(a). The decision is subject to change based on the review results. After a pre-effectuation
review of a decision, the Appeals Council has the authority to issue its own final decision or return the case for the
ALJ to conduct further proceedings. See 20 C.F.R. §§ 404.967, 416.1467.




Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)                                         C-1
           Appendix D – AGENCY COMMENTS



                                                       Social Security
MEMORANDUM


Date:      December 21, 2012                                                            Refer To:   S1J-3
To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Identifying and Monitoring Risk Factors at
           Hearing Offices” (A-12-12-11289)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.


           Attachment




           Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)                       D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT rEPORT,
“IDENTIFYING AND MONITORING RISK FACTORS AT HEARING OFFICES”
(A-12-12-11289)


GENERAL COMMENTS

Your report correctly notes that our resulting Hearing Office Productivity Index (HOPI) does not
monitor the offices’ overall performance, but rather is a tool that identifies anomalous
performance that merits further inquiry. The tool uses hearing office MI to identify specific,
actionable problems, recommend corrective action, and monitor implementation of the
recommendation and continued compliance.

Data anomalies, whether found in an individual measure or a combination of measures, do not
correlate directly to problems. Only after investigation into the causes of the data anomalies can
we determine whether a problem exists and if so, its root cause.

In 2011, we began work on data aggregations that could serve as indicators of quality issues.
These data aggregations examine at least 18 different factors, both individually and in
combination. We continue to test different combinations of factors and experiment with
weighting factors to determine those that are most predictive of problems.

Identifying and remediating problems at the individual, office, regional, or national level is not a
one-dimensional effort. We are using every tool at our disposal to identify and solve problems.
We use our case processing systems to collect data on common problems in adjudication then
train all our adjudicators quarterly on how to avoid those problems. We provide direct quality
feedback to adjudicators through “How MI Doing.” We use statistical studies to identify
anomalous behaviors, and we perform focused reviews to identify actionable policy compliance
issues. We counsel, train, mentor, and, if necessary, use the disciplinary process to correct
chronic problems in following procedure or policy.

RESPONSES TO THE RECOMMENDATIONS

Recommendation 1

Ensure an ALJ early monitoring system becomes a permanent part of management oversight and
use this information to timely address potential anomalies in the hearings process.

Response

We agree.




Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)                       D-2
Recommendation 2

Create new MI reports combining ALJ-related hearing office risk factors, which could include
variances within those factors, and use this information to identify potential processing and
management problems at hearing offices.

Response

We agree.




Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)                  D-3
Appendix E – MAJOR CONTRIBUTORS
Walter Bayer, Director, Chicago Audit Division

Nicholas Milanek, Audit Manager, Crystal City Audit Office

Yaquelin Lara, Auditor-in-Charge

Brennan Kraje, Statistician




Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289)   E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
